LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

March 25, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002

RE 20-444: UNITED STATES OF AMERICA V. MICHAEL ANDREW GARY
Dear Sir or Madam:
I hereby certify that at the request of Counsel for Amici Curiae Former United
States District Court Judges, on March 25, 2021, I caused service to be made pursuant
to Rule 29 on the following counsel for the Petitioner and Respondent:
PETITIONER:
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

RESPONDENT:
Jeffrey L. Fisher
Stanford Law School
Supreme Court Litigation Clinic
559 Nathan Abbott Way
Stanford, CA 94305-8610
650-724-7081
jlfisher@law.stanford.edu

This service was effected by depositing three copies of the Brief of Amici Curiae
Former United States District Court Judges in an official “first class mail” receptacle
of the United States Post Office to the Petitioner as well as by transmitting digital
copies via electronic mail to counsel for both parties.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 25th day of March 2021.

